<html>
<title> - SECURITY CLEARANCE REFORM: SUSTAINING PROGRESS FOR THE FUTURE</title>
<body><pre>[Senate Hearing 112-681]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-681

     SECURITY CLEARANCE REFORM: SUSTAINING PROGRESS FOR THE FUTURE

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 21, 2012

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                  U.S. GOVERNMENT PRINTING OFFICE

75-219 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
               Nicholas A. Rossi, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                        Christine West, Counsel
                Jena McNeill, Professional Staff Member
                      Aaron H. Woolf, Chief Clerk




















                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1
Prepared statement:
    Senator Akaka................................................    25

                               WITNESSES
                        Thursday, June 21, 2012

Hon. Gene L. Dodaro, Comptroller General of the United States, 
  U.S. Government Accountability Office..........................     3
Hon. Daniel I. Werfel, Controller, U.S. Office of Management and 
  Budget.........................................................     5
Hon. Elizabeth A. McGrath, Deputy Chief Management Officer, U.S. 
  Department of Defense..........................................     6
Merton W. Miller, Associate Director, Federal Investigative 
  Services, U.S. Office of Personnel Management..................     8
Charles B. Sowell, Deputy Assistant Director for Special 
  Security, Office of the Director of National Intelligence......    10

                     Alphabetical List of Witnesses

Dodaro, Hon. Gene L.:
    Testimony....................................................     3
    Prepared statement...........................................    27
McGrath, Hon. Elizabeth A.:
    Testimony....................................................     6
    Prepared statement...........................................    63
Miller, Merton W.:
    Testimony....................................................     8
    Prepared statement...........................................    69
Sowell, Charles B.:
    Testimony....................................................    10
    Prepared statement...........................................    77
Werfel, Hon. Daniel I.:
    Testimony....................................................     5
    Prepared statement...........................................    55

 
     SECURITY CLEARANCE REFORM: SUSTAINING PROGRESS FOR THE FUTURE

                              ----------                              


                        THURSDAY, JUNE 21, 2012

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m., in 
Room 342, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Subcommittee, presiding.
    Present: Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. This hearing of the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia is called to order.
    Aloha and good afternoon to all of you. Mahalo. Thank you 
very much for coming. I would tell you that this is a time for 
praise because so much has been done and so much needs to be 
done, too. But I think we are moving along the right course and 
I would like to think of it like a canoe. We are on the right 
course, so thank you.
    In 2005, the Government Accountability Office (GAO) placed 
the Personnel Security Clearance Process on its High-Risk List 
due to a massive backlog of applications and insufficient 
quality standards. This is the Subcommittee's eighth hearing on 
the security clearance process since that time.
    In addition to GAO's and the Subcommittee's oversight, the 
Administration has placed long-term high-level focus on 
reforming the process, and I must commend you because, 
together, these agencies have made significant improvements. I 
am pleased to say that last year, the security clearance 
process was removed from GAO's High-Risk List. The application 
backlog has been eliminated, and timeliness requirements in the 
2004 Intelligence Reform Act have been met and exceeded. Today, 
initial investigations take an average of 44 days to complete, 
compared to a staggering 189 days in 2005. That is the kind of 
progress we have made.
    Investigation quality improvements were another key aspect 
of removing the high-risk designation. In multiple reports, GAO 
had found that clearances were granted based on incomplete 
investigation files. Moreover, there was no way to evaluate the 
quality of security clearance determinations to make sure 
security threats were consistently weeded out. Lapses in 
quality posed a national security risk.
    The Performance Accountability Council (PAC) has worked 
together to address all aspects of investigation and 
adjudication quality. The PAC has updated the security 
clearance application, improved interview techniques, and 
created quality metrics. Its members are working to standardize 
investigator training and to develop governmentwide 
adjudication guidelines.
    Despite considerable progress, challenges remain. Continued 
oversight and accountability are needed to sustain progress and 
momentum in the future. Reciprocity continues to be an issue. 
In our 2010 hearing, I urged agencies to work together to 
accept clearances from other agencies. This allows critical 
national security positions to be filled with the right people 
more quickly.
    Although progress has been made on this issue, establishing 
more uniform training, investigation, and suitability standards 
would increase trust between agencies and promote reciprocity. 
Additional information technology improvements also are needed 
to support information sharing and case management. Without 
these investments, further improvements in timeliness and 
reciprocity will be difficult to achieve.
    As you all know, this will be my last hearing on the 
security clearance process before I retire. Congressional 
oversight and sustained focus by the Executive Branch have 
produced a more efficient and functional security clearance 
process. I am proud of what we have accomplished together and 
hope that our work will serve as a model to address other high-
risk areas in our Federal Government.
    I will continue to monitor this issue during my remaining 
time in the Senate and I hope that future Members of this 
Subcommittee continue to focus on this critical issue. I look 
forward to hearing from our witnesses on how they plan to build 
on this legacy and ensure the continued success of the security 
clearance process.
    It is my pleasure to again welcome our panel of witnesses 
to the Subcommittee today: Gene Dodaro, Comptroller General of 
the United States and head of the Government Accountability 
Office; Danny Werfel, who is the Controller at the Office of 
Management and Budget (OMB); Elizabeth McGrath, Deputy Chief 
Management Officer at the Department of Defense (DOD); Mr. 
Merton Miller, Associate Director of Federal Investigative 
Services (FIS) at the Office of Personnel Management (OPM); and 
Mr. Charlie Sowell, Deputy Assistant Director for Special 
Security at the Office of the Director of National Intelligence 
(ODNI).
    As you know, it is the custom of this Subcommittee to swear 
in all witnesses, so will you please stand and raise your right 
hand.
    Do you swear that the testimony you are about to give this 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Mr. Dodaro. I do.
    Mr. Werfel. I do.
    Ms. McGrath. I do.
    Mr. Miller. I do.
    Mr. Sowell. I do.
    Senator Akaka. Thank you. Let the record show that the 
witnesses answered in the affirmative.
    Although statements are limited to 5 minutes, I want all of 
our witnesses to know that their entire statements will be 
included in the record.
    Mr. Dodaro, will you please proceed with your statement.

TESTIMONY OF HON. GENE L. DODARO,\1\ COMPTROLLER GENERAL OF THE 
      UNITED STATES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dodaro. Thank you very much, Mr. Chairman. Good 
afternoon to you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dodaro appears in the appendix on 
page 27.
---------------------------------------------------------------------------
    Senator Akaka. Good afternoon.
    Mr. Dodaro. I would like to start with the announcement of 
your retirement. First, on behalf of myself and all my 
colleagues at the GAO, thank you for your service to the 
country and for being such a steadfast proponent of improving 
management in the Federal Government. We have had the privilege 
of working with you on many issues, on our High-Risk list, 
human capital, nuclear-radiological issues, veterans' issues, 
financial literacy, and the list goes on. Know, though, that 
when you leave the Senate, you leave with our deep appreciation 
for your dedication and with the best wishes from all of us to 
you and your family.
    Senator Akaka. Thank you much.
    Mr. Dodaro. I think today's hearing is a really good 
example of what can happen when you have sustained high-level 
Congressional attention and active engagement with the 
Executive Branch, and when the Executive Branch gets organized 
properly to tackle a problem and gives dedicated, committed 
top-level leadership and proper resources, and there is the 
application of good management practices to tackle a problem at 
hand.
    As you pointed out, we put the area on the High-Risk List 
in 2005 for various reasons--backlogs, incomplete 
investigations and adjudication documentation. Congress held a 
series of hearings, not only this Subcommittee, but other 
Committees, a total of 15 hearings from the time it was put on 
the list. The Administration organized into the Performance 
Accountability Council. Top-level officials were dedicated to 
it. They were supported by staff in their agencies. And metrics 
were set, which is very important, and that is what I meant by 
the proper application of management principles. And as a 
result of dramatic improvements in the timeliness of processing 
initial investigations from DOD, in particular, which covers 
the lion's share of the investigation and clearances issues, 
and the establishment of these quality metrics in 2010, we felt 
comfortable removing the area from our High-Risk List with the 
proviso that there be continued attention and commitment on the 
part of the Executive Branch to do this.
    Now, the real challenge going forward will be to sustain 
the attention to this area and to enhance the efforts that have 
been put in place and to make sure that the continued 
improvements are there and there is not any potential for there 
to be slippage in the progress that has already been achieved.
    And a few areas that I would point out that I think really 
need attention is, one, while quality metrics have been 
introduced, they need to be fully implemented and they need to 
be refined as the process unfolds and based on experience in 
applying the quality metrics and to make sure that they are 
used governmentwide, not just at DOD, ODNI and OPM. I think 
those would be key developments.
    Second, in terms of the fiscal pressures facing the Federal 
Government right now, I think there are opportunities for 
efficiencies to be gained in the process. I know OPM is looking 
now at efficiencies in their process and is supposed to have a 
report next year on that. We are encouraged by that 
development. We also pointed out in our recent report on 
overlap and duplication that there were five different agencies 
developing case management systems and we thought that there 
was a possibility for overlap and duplication in this area. We 
made a recommendation to OMB to establish policies so that 
agencies are leveraging off existing technologies and not 
making duplicative investments. We are encouraged OMB agreed 
with that recommendation and is moving to implementation in 
that area. I think that can save a lot of money, too. As we 
point out in our testimony, investments in information 
technology are one of the major cost drivers associated with 
processing clearances now.
    And then, finally, there needs to be continued attention to 
determining and having in place the right process for figuring 
out who should have a clearance in the first place, and to make 
sure that only the minimum number of people have them. I know 
in many cases, it is important to have the flexibility of 
having people with clearances, particularly at the ``top 
secret'' level, in carrying out the missions of the agencies, 
but there needs to be an initial process of determining what 
that number is and keep it at a minimum. The same is true of 
when reinvestigations have to be taking place and you have to 
go through the process over again. Further, there is a huge 
difference in the amount of money that is spent to process a 
``top secret'' clearance versus a ``secret'' clearance, and so 
there are cost implications, as well.
    So in summary, Mr. Chairman, we are very encouraged by the 
progress, with the partnership in Congress and the 
Administration in this area. We felt comfortable enough to take 
it off the High-Risk List, but that does not mean we do not 
have a watchful eye on this going forward. Congressional 
oversight and continued attention by the Executive Branch are 
pivotal, and we will do our part, as well.
    So thank you very much. I would be happy to answer 
questions at the appropriate time.
    Senator Akaka. Thank you very much, Mr. Dodaro.
    Mr. Werfel, please proceed with your statement.

TESTIMONY OF HON. DANIEL I. WERFEL,\1\ CONTROLLER, U.S. OFFICE 
                    OF MANAGEMENT AND BUDGET

    Mr. Werfel. Chairman Akaka, thank you for inviting me here 
today. It is my privilege to testify on behalf of the Office of 
Management and Budget and to discuss the Administration's 
ongoing security clearance reform efforts. 
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Werfel appears in the appendix on 
page 55.
---------------------------------------------------------------------------
    This Administration has made important advances in 
reforming the security clearance process. There is still work 
to be done, but Federal hires, military personnel, cleared 
contractors, and those personnel requiring a reinvestigation 
have a more effective and expedient clearance experience than 
they did just a few years ago.
    For many years, a backlog in the government's security 
clearance inventory caused tremendous problems and significant 
expense. Recognizing the breadth and depth of this problem, 
Congress took action. In 2004, the Intelligence Reform and 
Terrorism Prevention Act (IRTPA) challenged the Federal 
Government to address these issues, and in 2005, the GAO placed 
DOD's Personnel Security Clearance Program on its high-risk 
list.
    In response, the Executive Branch took aggressive action to 
address the goals of IRTPA and tackle the backlog, and the 
results are clear. In 2005, the governmentwide average for 
initial clearances was 265 days. As recently as 2006, the 
backlog of pending clearance investigations over 180 days old 
stood at almost 100,000 cases. By December 2009, 90 percent of 
the government's initial clearances were completed within the 
IRTPA-required time frame of 60 days, and we have consistently 
met the IRTPA target since that time and the decades-old 
backlog of initial investigations is now gone.
    In addition, the Suitability and Security Clearance 
Performance and Accountability Council, was established in 2008 
and is held accountable to the President for achieving security 
clearance reform goals. Since 2008, the PAC has aggressively 
taken on and met many reform challenges.
    In concert with the goal to increase the use of information 
technology in making the security and suitability clearance 
process more efficient, applicants are using an improved 
electronic questionnaire for national security positions. 
Investigators have increased access to electronic record 
repositories. OPM investigations are transmitted 
electronically. And the PAC has completed several promising 
pilots on the effectiveness of automated record checks and 
support of revised Federal investigative standards. The PAC is 
currently developing an implementation plan for a five-tiered 
investigative model that will streamline and facilitate greater 
reciprocity between suitability and security investigations and 
determinations. And perhaps most importantly, 90 percent of the 
security clearance determinations last quarter were completed 
within 46 days, an 83 percent reduction from the 2005 level, 
exceeding the IRTPA timeliness standard.
    This is significant progress, and our ongoing efforts to 
sustain timeliness and ensure quality, led GAO to remove DOD's 
Personnel Security Clearance Program from its high-risk list 
last year. Such impressive results are attributable to the 
skill and dedication of the staff at the Defense Department, 
the Office of the Director of National Intelligence, the Office 
of Personnel Management, our partnership with GAO, and the 
leadership and persistent focus of Congress and this 
Subcommittee, in particular.
    Looking forward, in order to sustain this progress, we are 
focused on amending the investigative and adjudicative 
standards to make identified efficiencies permanent and 
supporting them with further technology improvements. In 
particular, we are pushing forward on three key areas.
    First, aligning suitability and security processes and 
policies through modification of regulatory standards, 
investigative standards, and information collection forms that 
underlie our clearance operations.
    Second, leveraging information technology (IT) solutions to 
improve timeliness, quality, and reciprocity, in particular, 
continuing to convert paper-based application processes to 
electronic questionnaires in the intelligence community (IC) 
and further connecting intelligence community and unclassified 
record repositories.
    And third, providing oversight of and assistance to 
agencies that are lagging behind in security clearance reform.
    In all these efforts, we will rely on the continued efforts 
and partnership of the PAC, oversight of the Security and 
Suitability Executive Agents, cooperative leadership of 
Executive Branch agency heads, as well as the accountability 
brought to bear by GAO and this Subcommittee to ensure that we 
stay on track and do not lose momentum.
    Without question, significant progress has been made to 
date in security clearance reform, but work remains in order to 
make that progress sustainable and that effort remains a high 
priority for this Administration and for me personally.
    With that in mind, before I close, I would like to take a 
moment to thank you, Mr. Chairman, for your leadership. We will 
lose a key partner when you leave the Senate, but we are proud 
to have accomplished so much and to have established this 
trajectory on your watch. We look forward to our continued work 
with your colleagues on the Subcommittee as well as my fellow 
witnesses who continue to drive forward the reform process 
through the PAC.
    Once again, thank you for the opportunity to testify and I 
look forward to answering your questions.
    Senator Akaka. Thank you very much, Mr. Werfel.
    Ms. McGrath, will you please proceed with your statement.

TESTIMONY OF HON. ELIZABETH MCGRATH,\1\ DEPUTY CHIEF MANAGEMENT 
              OFFICER, U.S. DEPARTMENT OF DEFENSE

    Ms. McGrath. Thank you very much. Chairman Akaka, thank you 
for the opportunity to testify before you and the Subcommittee 
today on the Defense Department's efforts toward reforming the 
personnel security clearance process.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. McGrath appears in the appendix 
on page 63.
---------------------------------------------------------------------------
    I, too, truly appreciate the Subcommittee's leadership over 
the last few years. Your sustained attention has been 
tremendously valuable in ensuring that we continued our 
improvement in both timeliness and quality. And, sir, I want to 
specifically thank you for your personal engagement in these 
efforts. I do not know that I have been to all of the eight 
hearings, but it feels like I have been to most of them, so 
thank you very much, because I think without your leadership 
and the leadership of the Administration and the Government 
Accountability Office, we would not be as far along today as we 
are.
    Since co-founding the Joint Reform Team 5 years ago, DOD 
and its teammates have accomplished quite a bit, as has been 
mentioned, streamlining policy and processes, reducing 
duplication and waste, strengthening governance through the 
Performance Accountability Council, which I believe is a model 
for effective interagency cooperation.
    The results are clear. The timeliness far exceeds, as you 
mentioned, sir, the goals set by the Intelligence Reform and 
Terrorism Prevention Act. We certainly do have a higher quality 
security clearance program today and we have better information 
technology that enhances capabilities across the Federal space, 
and certainly within the Defense Department.
    And I must also say that it has been a long desire of the 
Department to have at least one of its items removed from GAO's 
High-Risk List. I mention our work in security clearance reform 
all the time a model for how that it is achievable. We have 
demonstrated that, and I look forward to taking more of our 
high-risk items off of that notorious list.
    These improvements to the security clearance process 
certainly have made great contributions to the DOD mission. It 
improves our ability to safeguard classified material, place 
qualified individuals into jobs faster, effectively utilize our 
contractor workforce, and reduce the burdens and inconveniences 
on both the Federal workforce and our military members.
    Our results present the progress that is possible when 
agencies commit to joint goals informed by governmentwide 
priorities and establish proper controls to ensure results. It 
has been an honor to serve not only as the DOD voice to this 
effort, but also as the Vice Chair of the Performance 
Accountability Council. We could not have achieved this project 
without the work of the organizations represented here today 
and the sustained leadership and focus of this Subcommittee.
    Specific to the Defense Department, I would like to 
highlight just a few things. Against the IRTPA goal to 
adjudicate cases in 20 days, DOD's statistic for adjudication 
gone as low as 7 days. It is extremely impressive. We did this 
through many different methods, both by looking at our process 
within the Defense Department but also infusing and 
implementing greater information technology.
    I want to highlight our electronic adjudication capability. 
In our Case Adjudication Tracking System (CATS), we were able 
to electronically adjudicate last year almost 100,000 cases 
representing 24 percent of our ``secret'' workload to allow our 
adjudicators to focus on the more important cases. We have also 
offered that to other Federal agencies. The Department of 
Energy (DOE) has taken advantage of that capability with the 
Social Security Administration planning to implement next year.
    We have also implemented greater tools to ensure we have 
quality in place for both our adjudicative determinations and 
investigations we also have initiated a robust adjudicator 
certification program to ensure comprehensive and standardized 
training of all of our adjudicators.
    As has been mentioned, we still have things to do. Key to 
those are the policy initiatives, as Mr. Werfel mentioned, the 
Federal Investigative Standards, and adjudicative guidelines. 
We are very close to implementing both of those. Our 
governmentwide regulations put policy in place to ensure that 
we sustain this progress over the time horizon. We developed 
training standards from a national perspective, in order to 
reach not only the Department of Defense but also the Federal 
space. We are setting and reaching stretch goals in the area of 
information technology to truly enable our original vision of 
end-to-end automation.
    I do look forward to continuing to work with this 
Subcommittee in the future on these important issues, and 
again, Senator Akaka, I want to thank you very much for your 
personal engagement on this and other issues that I have the 
opportunity to talk to you about. I look forward to your 
questions.
    Senator Akaka. Thank you very much, Ms. McGrath.
    Mr. Miller, will you please proceed with your statement.

  TESTIMONY OF MERTON MILLER,\1\ ASSOCIATE DIRECTOR, FEDERAL 
  INVESTIGATIVE SERVICES, U.S. OFFICE OF PERSONNEL MANAGEMENT

    Mr. Miller. Thank you, Chairman Akaka. On behalf of 
Director Berry, I want to thank you for the opportunity to 
testify today regarding OPM's role in security clearance reform 
and our efforts in achieving and sustaining the tremendous 
progress made in the security clearance and investigation 
program.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Miller appears in the appendix on 
page 69.
---------------------------------------------------------------------------
    I am also very pleased to have the opportunity to thank 
Chairman Akaka and this Subcommittee for your sustained 
leadership in correcting a decades-old problem through 
investigative consolidation, legislated performance goals, and 
directly supporting security clearance reform efforts.
    Lastly, but most importantly, I am delighted to have the 
opportunity to thank Chairman Akaka, and with deepest gratitude 
and best wishes, mahalo nui loa, for his many years of noble 
and dedicated service to our country.
    Senator Akaka. Thank you very much.
    Mr. Miller. From the beginning, OPM has been deeply 
committed to working closely with our partners. The Office of 
the Director of National Intelligence and the Department of 
Defense, along with our other partners, have moved the security 
clearance program forward. We have implemented important 
reforms, and improved the timeliness, efficiency, and quality 
of the security clearance and background investigative process.
    It was not that long ago when Members of this Subcommittee 
were hearing testimony about significant and growing security 
clearance backlogs, inadequate resourcing to address the 
growing workload, increasing risks to national security because 
reinvestigations were delayed or not conducted at all, and the 
loss of billions of dollars of productivity because hundreds of 
thousands of Federal employees, military members, and 
contractors experienced significant delays to obtain a 
clearance. The backlog was first formally recognized in 1981 
and continued until 2009, when the program was finally current.
    While there had been continued reporting on the challenges 
associated with the background investigative program, it was 
not until legislation like the Intelligence Reform and 
Terrorism Prevention Act and E.O. 13381 that put this program 
on the right course.
    Today, OPM's background investigative program performance 
is strong, demonstrated by years of providing timely, quality 
products to our 100-plus customer agencies. We have no 
backlogs, are meeting Congressional timeliness mandates, and we 
continue to increase automation to enhance performance, 
quality, timeliness, and reduce cost. The success of this 
program can be directly attributed to this Subcommittee's 
leadership, OMB's determined chairmanship of the Performance 
Accountability Council, and the strong partnership OPM has 
enjoyed with the DNI, DOD, and other Executive Branch agencies.
    Since 2005, OPM has seen our workload and field work 
intensive investigations increase significantly, with a 26 
percent increase in ``top secret'' investigations, a 21 percent 
increase in ``secret'' and ``confidential'' investigations, and 
a 144 percent increase in ``top secret'' reinvestigations. 
Despite unpredictable workloads and projections and a shift in 
investigative requests towards more resource-intensive 
investigations, OPM has been able to improve investigative 
timeliness by 75 percent through appropriate levels of 
investment in Federal and contract staffing, training, and 
increased automation. More importantly, Federal, military, and 
government contract employees are getting to work more quickly, 
returning billions of dollars of previously lost productivity 
back to the Federal Government.
    As demonstrated by years of meeting PAC quality metrics and 
supported by continuing reform enhancements, the quality of our 
investigation program remains a top priority. We ensure the 
quality of our investigations products by actively pursuing 
feedback from our customers, maintaining a robust internal 
quality and integrity control program, and have invested 
heavily in standardizing training and the use of quality tools. 
Our strategies to continue to ensure an effective investigative 
staff includes targeted training enhancements, a realigned 
quality structure, and modernized automation tools and system 
support.
    OPM's partnership with other Executive Branch agencies 
remains one of the most important components of achieving our 
strategy for continuous improvement. OPM co-chairs and 
participates in a number of Executive Branch working groups, 
including the Federal Investigative Standards Working Group, 
Quality Standards Working Group, and Data Standards Working 
Group, all focused on governmentwide process, quality, and 
standardization improvements. In addition, OPM will continue to 
work with our Federal, State, and local record providers to 
streamline collection methods, standardize record formats, and 
work to identify adjudicatively relevant information that will 
enhance the content of our investigations.
    Last, OPM is engaged in transforming our suite of eight 
critical tools that we use to push investigative information. I 
am extremely proud of the contributions that OPM has made in 
reforming the security clearance investigative process. Through 
sustained leadership of this Subcommittee and our joint 
partnerships, we have successfully worked through and overcome 
huge challenges. OPM looks forward to improving on our 
successes as we focus on executing our critical executive 
agency responsibilities to sustain the momentum.
    Thank you for the opportunity to testify. I look forward to 
your questions.
    Senator Akaka. Thank you very much, Mr. Miller.
    Mr. Sowell, please proceed with your statement.

 TESTIMONY OF CHARLES B. SOWELL,\1\ DEPUTY ASSISTANT DIRECTOR 
   FOR SPECIAL SECURITY, OFFICE OF THE DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Mr. Sowell. Thank you, Mr. Chairman, and thank you for the 
opportunity to discuss the progress we have made together on 
security clearance reform. 
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sowell appears in the appendix on 
page 77.
---------------------------------------------------------------------------
    I am pleased to appear beside our principal partners of 
reform who work together to ensure that improvements to 
timeliness, quality, and reciprocity are institutionalized and 
sustained. Director Clapper continues to give extensive time 
and attention to this effort and he recognizes that his role as 
Security Executive Agent is key to continuing the significant 
progress we have made in transforming the end-to-end security 
clearance process across the Federal Government. Clearance 
reform truly remains one of his top priorities.
    This initiative has enjoyed a unique level of bipartisan 
support, and I believe that our success is the direct 
reflection of that bipartisanship. We are grateful to this 
Subcommittee and particularly to you, Senator Akaka. During 
your tenure as Chairman, security clearance reform has thrived.
    Today, I would like to focus my remarks on the DNI's 
efforts and accomplishments. As the Security Executive Agent, 
Director Clapper has a unique responsibility for implementing 
comprehensive security clearance reform. And over the past 2 
years, we focused our efforts on institutionalizing his 
responsibilities in this area.
    In August 2011, we issued a policy clarification to 
eliminate discrepancies between intelligence community and 
national investigative standards which immediately improved 
governmentwide reciprocity. Reciprocity is important, because 
as this Subcommittee knows well, it eliminates redundancy, 
lessens the likelihood of errors, and saves time and taxpayer 
dollars.
    In March 2012, the DNI issued Security Executive Agent 
Directive 1 (SEAD), a first of its kind publication, which 
clearly outlines the Security Executive Agent's authorities and 
responsibilities across the U.S. Government. SEAD 1 applies to 
all departments and agencies. The DNI also led the interagency 
efforts to revise the National Security Adjudicative Guidelines 
which we expect to issue later this year.
    The DNI continues to support the PAC's goals, including 
aligning security and suitability, improving quality, 
timeliness, and reciprocity. Our most mature oversight function 
in support of these goals involves tracking and reporting 
security clearance timeliness data from agencies across the 
government. Based on this data, in 2009, the DNI began issuing 
annual letters to departments and agencies that were failing to 
meet these timeliness goals. We believe these letters reflect 
oversight best practices. We report the facts, we hold the 
agencies accountable, but we do so in a way that encourages 
continual improvement and explicitly recognizes progress. In 
other words, Mr. Chairman, we have taken a play out of this 
Subcommittee's playbook.
    Over the past year, we have refined our annual letters and 
added periodic reinvestigation timeliness and backlog numbers 
to further assist the PAC in understanding agencies' individual 
and collective performance.
    In January 2012, the DNI sent letters to 46 departments and 
agencies addressing their 2011 performance. Twenty-two agencies 
met the timeliness goals for all of 2011. Nineteen agencies met 
the goals for some part of the year. And only five agencies did 
not meet the goals and were directed to provide improvement 
plans. And of particular note, four out of the five agencies 
which did not meet the goals in 2011 actually improved their 
performance throughout the year. We found this very 
encouraging, because given the complexity of the security 
clearance process and the organizational challenges at play, 
even moderate improvements demonstrate a commitment to progress 
that we think bodes well.
    In addition to his oversight role, the DNI believes we must 
be responsive to both the emerging requirements of departments 
and agencies and the diminishing resources we all face. To that 
end, we hold quarterly Security Executive Agent Advisory 
Committee meetings with representatives from across the 
government. The meetings are rotated among the participating 
agencies and they serve as a forum to present ideas in 
innovative policy, technology, and training solutions.
    There is still work to do. We continue to focus on ensuring 
reciprocal acceptance of existing clearances between agencies. 
We have established a reciprocity webpage that provides 
education and awareness, a checklist of exceptions, policy 
references, and examples of non-reciprocity issues. Measuring 
reciprocity is difficult, as this Subcommittee knows, and 
despite an abundance of anecdotes, real data is hard to come 
by.
    To address this problem, we are developing a web-based form 
for individuals to submit their experience with reciprocity 
issues to the DNI. This will allow us for the first time to 
collect empirical data, perform systemic trend analysis, and 
assist agencies with achieving workable solutions.
    We have also partnered with numerous industry associations 
to address longstanding reciprocity issues. Industry is 
uniquely affected by reciprocity problems and they have 
provided key insight to understanding the potential impact of a 
variety of Security Executive Agent efforts to make 
improvements.
    Director Clapper is intent on creating a strong, effective 
Security Executive Agent capability for improving government 
operations and efficiencies and we hope that the initiatives we 
have outlined today demonstrate that.
    Mr. Chairman, on behalf of Director Clapper, we appreciate 
your exceptional leadership and dedication to security 
clearance reform. I hope our collective efforts and successes 
give you reassurance that the time and energy you have devoted 
to this important national security capability have been very 
well spent. We look forward to the continuing partnership with 
our fellow agencies and this Subcommittee as we continue to 
strengthen our clearance processes in defense of the Nation.
    Senator Akaka. Thank you very much, Mr. Sowell.
    Mr. Sowell, the absence of standardized governmentwide 
training is often cited as the reason that agencies are 
reluctant to immediately reciprocate a clearance. As you 
testified now, ODNI worked with OPM to develop national 
training standards for investigators, which the PAC has 
approved. My question to you is, how is ODNI working with 
agencies to implement the new training standards across the 
government and when can we expect full implementation?
    Mr. Sowell. Thank you, Senator. As you mentioned, we have 
partnered with the PAC and our colleagues at OPM to develop 
investigator and adjudicator training standards. These will be 
for both the security and suitability populations. And as you 
mentioned, this will be an extremely important element of 
improving reciprocity across government.
    Where those standards are at this point is they are going 
through the review process at the DNI and OPM. The Director of 
OPM and the DNI will jointly issue the investigator training 
standards and then Director Berry will issue the suitability 
adjudicator training standards and Director Clapper will issue 
the security adjudicator standards. We expect that those 
standards will be issued before the end of summer, probably the 
August time frame is our best estimate at this point. And once 
those are issued, we will have an Implementation Working Group 
with representatives from across government to make sure that 
we get that right. That Working Group will form immediately 
after the standards are issued.
    Senator Akaka. Thank you.
    Let me follow up with a question to Mr. Miller on that. 
Will you comment, Mr. Miller, on OPM's role in this process and 
on the challenges implementing formalized training standards.
    Mr. Miller. Yes. Chairman Akaka, as Mr. Sowell indicated, 
we have an interagency working group. In fact, I was the co-
chair of the PAC Subcommittee for Training that helped develop 
the training standards. And the focus of the training standards 
was to ensure that we had standardization across the Federal 
Government relative to training for both background 
investigators and security and suitability adjudicators, and 
that was to lead to, obviously, reciprocity, which is the key 
to reform, to ensure people can move across the government 
efficiently, and we have assurances that not only are the folks 
conducting investigations doing that to a trained standard, but 
also those that are adjudicating are also adjudicating to a 
proper standard.
    The challenge will be this, getting everyone who does have 
training implementation requirements within their agency to 
comply with the standards, which will be a role of the 
Executive Agents, both suitability and security, to ensure they 
meet those standards.
    Now, I can tell you personally, within OPM, we have already 
implemented the new Federal standards for both background 
investigators and suitability adjudicators and are already 
training our folks and other agencies to that standard. So we 
are not waiting for the implementation guidance to come out to 
make sure we move forward.
    Senator Akaka. Thank you.
    Let me follow up with a question for you, Ms. McGrath, on 
adjudicator training. You testified that DOD initiated the 
Adjudicator Certification Program in 2010 and plans to have 90 
percent of its adjudicators certified by this fall. Will you 
please elaborate on this program and discuss how it dovetails 
with the new investigator training standards we just discussed.
    Ms. McGrath. Yes, sir. Thank you. As Mr. Miller mentioned, 
DOD and the Office of Personnel Management are co-chairs of the 
Training Subcommittee that is under the PAC's watchful eye and 
the Adjudicator Certification Program that the Department has 
put in place has served as the foundation to the national 
adjudicator program. So the linkage between the two is very 
solid.
    Because of the DOD's volume and also our training facility 
through the Defense Security Service Training Academy, we have 
the ability to bring people through the training program. It is 
very important for us to ensure we have reciprocity within our 
own enterprise. Therefore, standardization within our own 
enterprise is extremely important so that we can have the 
reciprocity between our military departments and agencies. And 
so we did move out and, as I mentioned, the national standards 
are built upon the work that the Department started, but worked 
through the Training Subcommittee to ensure that we had not 
just the DOD requirements, but also the requirements of the 
Federal Government.
    And, sir, as you mentioned, we are on target to have 90 
percent of our adjudicators complete the certification program 
in the September time frame and we will continue to ensure that 
all of them do meet those standards and also receive continuing 
education after they receive the certification.
    Senator Akaka. Thank you.
    Mr. Werfel, OPM and the PAC currently track reciprocity, 
but the metrics are limited to things like the number of 
requested and rejected investigations. My question to you is 
are these metrics adequate to get a full picture of reciprocity 
challenges, and if not, what additional data will the PAC 
collect in the future?
    Mr. Werfel. Mr. Chairman, thank you for the question. 
Clearly, reciprocity is central to the overall effort. I want 
to point out, though, as well, that there are broader metrics 
that are important that will show progress as we improve 
reciprocity generally, and that includes the timeliness 
metrics, the quality metrics, reducing backlogs for 
investigation and reinvestigation. All of that, I think, is 
relevant and a byproduct to a healthier reciprocity policy 
across the government.
    I also want to point out that there are critical steps that 
are underway to improve reciprocity, such as, and probably most 
importantly, sharing of information in an automated way across 
agencies and investigations to ensure that there is seamless 
access that would enable a confidence level to occur to achieve 
reciprocity. And, obviously, all of the work that is going on 
to align our various policies around suitability and security 
clearance and standardize them enables, again, that confidence 
level to increase.
    In terms of how we measure whether all of this is resulting 
in a healthy diagnosis for how reciprocity is being used, we 
have a performance metric team in place that is evaluating 
different options. One of the metrics that is under development 
is the number of reciprocal actions that are occurring by 
quarter. I think there are a couple of pieces to it.
    On the one hand, you want to understand how often requests 
for reciprocity are being requested. You also want to 
understand at the back end whether those requests are being 
accepted and whether, at the end of the day, you have a 
situation in which someone was cleared through reciprocal 
means.
    I think if you can look at those two pieces of the life 
cycle together and then align them with the other broader 
metrics that I described around timeliness and quality, you are 
going to get to that point where you have a healthy and 
comprehensive view of what is going on in security clearance. 
But as mentioned, there is work to be done. These metrics are 
not yet fully finalized and implemented. But I think we are on 
the right trajectory to both define and implement them.
    And in the meantime, while I cannot prove it through 
mathematics, the availability of data in ways that it has not 
been available before, combined with unprecedented performance 
on the timeliness metrics that we are seeing continuous 
improvement on each quarter, give us confidence that these 
efforts to improve reciprocity are starting to take hold. But a 
good, sound metric will help us monitor that very closely and 
we are working towards that.
    Senator Akaka. Thank you, Mr. Werfel.
    As you mentioned, in addition to tracking reciprocity, the 
PAC has established performance metrics to gauge the progress 
and quality of clearance investigations and adjudications. How 
is the PAC using the results of metrics to guide reforms?
    Mr. Werfel. Mr. Chairman, a high-level way of thinking 
about this reform effort is there are a few key pieces to it. 
One is that we are ensuring that we have the right amount of 
resources dedicated to reducing the backlog and driving 
activity, key points in these processes.
    And second, in addition to making sure that the resources 
are right to attack the problem, that we are also positioning 
ourselves by making sure that our policies make sense to enable 
reciprocity and making sure that our information technology is 
deployed most effectively. And the metrics are constantly 
referred to and looked at in our PAC meetings, in the 
subcommittee meetings, to guide those efforts.
    We have talked a little bit about the oversight role that 
the PAC plays, the fact that DNI has sent letters to those 
agencies that are underperforming, the fact that OPM has done 
over 60 on-site visits to various agencies to essentially audit 
their work. Those decisions are driven by what we see in the 
timeliness metrics, trends, underperformance. So in that way, 
the entire oversight framework is driven by the underlying 
data.
    Similarly, as we debate and dialogue exactly how to 
structure the investigative standards to ensure the appropriate 
alignment, we are again looking at the numbers and what the 
underlying data are telling us in order to balance some key 
things between quality and timeliness.
    So I think you are going to hear a lot today and have heard 
a lot today about this being a model. It has the key 
ingredients. It has the dedication of resources at multiple 
levels, including at a high level. It has a commitment and a 
long-term commitment to changing the policies to make them more 
fluid in serving a particular objective. And then modernization 
and automation are driving everything that we do.
    But critical to all of that is the reliance on metrics to 
make sure that we are making smart decisions along the way. So, 
again, I think all the right ingredients are there.
    Senator Akaka. Thank you so much.
    Mr. Dodaro, GAO has focused extensively on security 
clearance reform since it was placed on the High-Risk List in 
2005 and has worked closely with the PAC to address performance 
measures for the quality and reciprocity of clearance 
investigations and adjudications. Is GAO satisfied with the 
PAC's work to address performance measures?
    Mr. Dodaro. I think, basically, we were satisfied enough 
with the progress that had been made to remove them from the 
High-Risk List last year. But, as has been pointed out by every 
witness this morning, there are still additional efforts that 
need to be attended to going forward.
    Principally in the reciprocity area, there need to be 
metrics. I agree with Mr. Werfel that reciprocity in the 
investigation and adjudication and timeliness all need to be 
looked at together to get a comprehensive picture of what is 
happening.
    So good progress is being made, but it needs to be 
sustained and it needs to be improved and continually enhanced 
going forward. And as long as there is a process in place, and 
we are going to stay focused on watching this evolution as it 
takes place, I think continued progress can be made in those 
areas.
    Senator Akaka. Thank you, Mr. Dodaro.
    Mr. Sowell, in his previous testimony before the 
Subcommittee, Director Clapper noted that the Intelligence 
Community should be subject to the same quality metrics as the 
rest of the Federal Government. To what extent is the IC 
collecting data related to these quality metrics and what does 
the information show regarding the quality of investigations 
and adjudications in the IC?
    Mr. Sowell. Thank you, Senator. As you know, the 
intelligence community's cleared population consists of more 
``top secret'' Sensitive Compartmented Information (SCI) level 
clearances. Those clearances are granted on far more detailed 
investigations and adjudications because of the sensitivity of 
the data that the people are given access to.
    Our data indicates that the quality of those investigations 
across the IC is consistent and very good and we are working 
with our partners at OPM and across the agencies that have 
independent investigative authority. We are exploring specific 
metrics for the IC that would give us better insight into exact 
quality measures.
    I think it is important that anything we do in the IC is 
also coordinated closely with the PAC because we want to have 
an apples-to-apples comparison as we look at quality data, 
timeliness data, reciprocity data, et cetera.
    Senator Akaka. Thank you.
    Mr. Miller, I appreciate your focus on quality and 
completeness in addition to timeliness. I understand that DOD 
has implemented the Rapid Assessment of Incomplete Security 
Evaluations (RAISE), to flag incomplete investigative reports 
and compile data that can be shared with OPM. How does OPM plan 
to use the results of RAISE to improve the quality of its 
investigations?
    Mr. Miller. Thank you, Chairman. We receive feedback from 
DOD periodically on the results of their RAISE assessments that 
are filled out by their adjudicators as they evaluate an 
investigation. In fact, that leadership on the part of DOD in 
developing RAISE actually pushed forward the idea of developing 
a Quality Standards Working Group, an interagency group, to 
assess and put together a standard for the Federal Government 
relative to investigations. RAISE, as it is being used within 
the Department, is now being looked at as being expanded as a 
Federal wide quality assessment tool that can be used for all 
investigative service providers, not just OPM, but for those 
that have also been granted delegation for investigation. We 
co-chair that working group and we are working towards--and 
again, using RAISE as the current standard--expanding that to 
have a Federal standard for that.
    So the feedback is critical. It helped actually identify 
some challenges we had relative to current investigative 
standards and ensuring that everyone was complying with 
standards when they conduct an investigation and this will help 
us in the future, as well.
    Senator Akaka. Thank you so much.
    Mr. Werfel, in your testimony, you state that over 99 
percent of clearance application submissions to OPM are now 
electronically completed. I commend the PAC's efforts in 
leveraging technology to move away from the old paper-based 
applications to more efficient processes such as the use of the 
Electronic Questionnaires for Investigations Processing (e-
QIP). Why are some agencies still using paper-based 
applications? And how does this impact the PAC's efforts to 
improve governmentwide timeliness and quality standards?
    Mr. Werfel. Thank you, Mr. Chairman. I think it is both. As 
it turns out, it is basic common sense that the automation of 
our forms are going to lead to efficiencies, and here that 
common sense can be proven with data and real-time information 
that demonstrates that where those agencies have moved to an 
electronic process, it is just so much more efficient, in time, 
in particular.
    It is not just that the transmission of the records are 
quicker. You also are more guaranteed to have a complete file 
because if you are filling it out on paper, you can leave out a 
question or put something down that is ineligible or illegible 
and the information can be transmitted to the reviewer, and 
then all of the sudden they realize they do not have certain 
information. They have to send it back. Whereas in an 
electronic environment, the system can make sure that before 
you have closed out and can articulate that you have a 
completed file, that everything is clear and understandable, at 
least as it is programmed into the system that we have running 
for e-QIP.
    And I can go on and on and on about both central and 
tangential benefits. And we are trying to carry that message 
across to those agencies that have not yet implemented an 
electronic means. I think it is just a lot of elbow grease that 
is required on our behalf to go in and make sure that the 
agencies are focused on taking those critical steps to deploy 
these modernized solutions.
    I think it is pretty clear what the results are. I think it 
is about just pushing to make sure that it becomes a priority. 
And I think that is one of the reasons why the PAC has 
determined that the type of oversight that we are doing is 
appropriate. I work on a variety of different interagency 
councils across government and not all of those councils have 
deployed this technique of sending representatives from the 
council to a particular agency, in particular an under-
performing agency, and to apply that type of pressure and 
accountability and technical assistance to make sure that 
progress is being made. And the work that ODNI and OPM are 
doing is having an impact and the take-up rate has increased 
and we expect it will increase over time.
    So, ultimately, I think it is very clear that to the extent 
the agencies will adopt these electronic means, their 
performance will improve. That is both inevitable and certain 
and it is proven. For us, it is about staying relentlessly 
determined in making sure that these very powerful tools are 
implemented. And I think progress is being made.
    We referenced the 99 percent statistic and clearly that is 
important progress. That does not mean that we are done, 
because an agency that is not utilizing these tools is 
operating in a non-efficient manner and it is our job to make 
sure that we end all of those situations across government.
    Senator Akaka. Thank you.
    Mr. Dodaro, your statement notes that OPM still converts 
electronic applications to paper-based investigation files, in 
part because of the small number of agencies without electronic 
capabilities. Will you elaborate on this problem and how it 
should be addressed?
    Mr. Dodaro. Basically, yes. The electronic applications are 
received and then converted into paper documents, and the real 
solutions to this, I believe, are a couple-fold. Number one is 
that some of the smaller agencies could benefit from the IT 
investments that have been made in the larger agencies. This 
was the point I was making earlier about leveraging existing 
technologies, for example, to use DOD's system or some 
variation of it rather than try to justify an IT investment for 
a relatively small number of cases that may need to be 
processed for some of these smaller agencies. So you have to 
leverage technology, I think, a little bit more to help the 
smaller agencies with systems that are in place that could be 
used in their area.
    Second, OPM, as I mentioned earlier, is doing a process 
study of the efficiencies in their own process, and I believe 
that the study, if done properly, can highlight additional 
areas where this conversion process may not have to take place 
or it should not be as extensive. And I think there are a lot 
of opportunities to gain efficiency in those processes by 
studying how to tackle some of the time lags that are a part of 
this process. It will have multiple benefits in terms of both 
improving the timeliness as well as the quality of the 
investigations because more information will be able to be 
processed in an easier manner than through the manual 
conversion.
    Senator Akaka. Thank you, Mr. Dodaro.
    Mr. Miller, I understand that OPM has been engaged in a 
wide-ranging transformation of its EPIC IT system. During our 
last hearing in 2010, I asked Director Berry about costs and 
schedule concerns with this project. Would you please update us 
on the status of this project and how OPM intends to use these 
investments to streamline and automate the clearance process?
    Mr. Miller. Yes, Mr. Chairman. The investment that we are 
making is critical to ensuring that we remain agile enough to 
handle the challenges of the future. We have eight key systems 
that we are modernizing and I would like to characterize it as 
that old Volkswagen van that we used to all drive that would 
always start no matter what the circumstances. We are operating 
with a system. It is old, but it has been reliable. And what we 
are currently doing is we are updating that system. We are 
investing from 2008 until 2014 and so we are a good part of the 
way through our deliverables and our investment and we are 
seeing, in fact, increased capability. As we deliver new 
capability, we have seen new abilities to do new things with 
our systems.
    We are operating right now on very old software, in 
particular, and a great deal of our investment is to update and 
modernize that. We literally have to do coding, very detailed, 
very costly coding today where we are now incorporating either 
government off-the-shelf (GOTS) or commercial off-the-shelf 
(COTS) products that will advance us more rapidly and make us 
more responsive to the needs of our customers.
    So by 2014, we will have a new van, a van that will run and 
operate and be efficient, and we will no longer have that 
additional investment, IT investment that has been occurring 
between 2008 and 2014. We will go back to our normal operations 
and maintenance (O&M) investment. We are on track.
    Senator Akaka. Thank you.
    Ms. McGrath, during our last hearing on this subject, I 
asked you about the status of DOD's new clearance IT system 
known as the Defense Information System for Security (DISS), D-
I-S-S. Do you have updates on its capabilities, when it will be 
fully functional, and how DOD has budgeted for its 
implementation and maintenance?
    Ms. McGrath. Yes, sir. The DISS, is essentially a family of 
systems. There are three main pieces. One, I mentioned in my 
opening remarks, the Case Adjudication Tracking System. That 
does the case management, which is the movement of the cases 
and also adjudicative determinations.
    Our Joint Personnel Adjudication System (JPAS) is our 
legacy system that is the database that houses the decisions 
that have been made. That is to be replaced with a system 
called the Joint Verification System (JVS). And then to the 
extent that we decide as a group to enable an automated records 
check capability, that would be the third aspect of DISS.
    The CATS piece is fully implemented across our adjudication 
facilities today. We are also moving toward a much more 
consolidated adjudicative capability across the Department. The 
Joint Verification System is targeted for implementation in 
2014. The decisions that we make as a Federal group with regard 
to the right approach to automated records checks will 
determine the implementation of that piece should the DOD be 
asked to do that.
    CATS and JVS are fully funded and on track within the 
Department, and again, CATS being fully implemented.
    Senator Akaka. Thank you very much.
    Mr. Sowell, national security threats can be posed by 
individuals who already have access to classified information. 
Timeliness reforms have focused primarily on initial security 
clearances. However, attention must also be paid to continuous 
monitoring and periodic reinvestigations. How is ODNI 
addressing these issues and how does it plan to improve moving 
forward?
    Mr. Sowell. Thank you, Mr. Chairman. Yes, the insider 
threat is something that we are all very concerned about. As 
you can imagine, someone who does not have a clearance does not 
have access to the crown jewels. The people who are inside the 
system with the access to our most sensitive secrets are the 
populations that we are among the most concerned about.
    Following incidents over the past few years, we have stood 
up the National Insider Threat Task Force and that task force 
is looking at policy and technology and training issues that 
can all be brought to bear to address the insider threat issue. 
Key to addressing that issue, of course, is looking at our 
cleared population in a timely manner.
    One of the benefits of IRTPA was that it established 
timeliness goals for initial clearances, and I think the PAC 
leadership, in their wisdom, realized that you cannot just set 
timeliness goals for initial investigations. You also need to 
look at reinvestigations. So we do have a timeliness goal for 
periodic reinvestigations.
    I think our challenge is that while agencies are meeting 
those goals, there is a problem where you are only being 
measured when you submit the periodic reinvestigation through 
the process. So if you have not submitted someone for a 
reinvestigation, they are not being tracked. And so in his 
letters last year, Director Clapper started notifying agencies 
that we are going to be in the following year, so for 2012, 
measuring their backlog of periodic reinvestigations, and we 
think that this will give key insights to both the DNI and to 
the Performance Accountability Council on the extent of the 
problem and give us some indications of where we need to focus 
our efforts and attention.
    Senator Akaka. Thank you.
    Mr. Miller, GAO recently issued a report on OPM's 
investigation pricing structure which identified costs for OPM 
personnel and contract employees doing field work as primary 
cost drivers. Spending on these contracts has risen rapidly, 
from roughly $19 million in fiscal year (FY) 2005 to a peak of 
just under $486 million in fiscal year 2010. Please explain any 
recent efforts to evaluate OPM's investigative workforce as 
well as whether its current size and composition most 
efficiently use taxpayer dollars to accomplish that mission.
    Mr. Miller. Yes, Mr. Chairman. We are hyper-vigilant about 
the expenditures of OPM. We are interested in full cost 
recovery. We are not profit driven. And so back in 2005 when 
you had tremendous backlogs and Periodic Reinvestigation (PRs) 
were not being conducted, I do not think at that time the 
government really recognized the cost associated with a current 
program. In fact, it had not been current since time could 
remember. And so when the program was transferred in 2005, 
there is a recognition that we probably have to increase the 
field investigative force to as many as 8,000 people. Along 
with the backlog and the burden of clearing those PRs that had 
not been accomplished, we still had to now meet an Intelligence 
Reform and Terrorism Prevention Act requirement of a 40-day 
standard.
    So whether it is relative to a perfect storm or not, we 
combined not only a huge backlog, but we drove investigative 
times down. And we also implemented new standards during that 
period and we have seen a significant increase in the number of 
field work intensive investigations. As I mentioned earlier, 
our Top Secret (TS) investigative workload went up 21 percent. 
One ``top secret'' investigation is $4,000. A National Agency 
Check and Inquiries (NACI) investigation can range from $125 to 
$228. So when you see 20 percent of your workload go to the TS 
side, you are spending 10, 20 times the amount of money for an 
investigation.
    So we believe we have a great process in place. We have 
competition among our contractors. In fact, this year, our 
contractors, due to recognizing the distribution of their work, 
began to compete more dramatically on fees and we saw a 
reduction of almost 13 percent in the cost being charged to us 
by our contractors, which, extrapolated out this year, could 
result in a $68 million savings to the government.
    So we have a 25 percent baseline Federal workforce, which 
is critical. We align those mostly with our DOD customers where 
we know we have consistent workload. That is a sunk cost for 
us. We are going to pay their pay and benefits. And then as 
work needs to be delved out to our contractors, we pay them by 
the product they produce.
    So we continue to work to drive our costs down. We are 
conducting a manpower study to drive our own resources down. In 
fact, we have reduced our own manpower footprint on the Federal 
side by about 120 personnel this year.
    Senator Akaka. Thank you very much.
    Mr. Dodaro, as you know, I worked with Senator Carper and 
others to enact the Government Performance and Results Act 
(GPRA) Modernization Act, which encourages a cost-cutting 
approach, leadership commitment focus on management, and the 
use of performance metrics to achieve better results for the 
American people. At our hearing on implementation of the Act 
last year, you cited security clearance reform as an example of 
the type of progress that could be made using this approach. 
What lessons from security clearance reform can agencies apply 
to other high-risk areas, and what tools does the GPRA 
Modernization Act provide for this type of systemic reform?
    Mr. Dodaro. I think the GPRA Modernization Act provides 
extensive opportunities to address these type of issues. First, 
it enhances consultation requirements with Congress, which I 
think is pivotal. I think there is an example in personnel 
security clearances of Congress convening a meeting to talk 
about performance metrics, to provide input. So I think the 
Congressional consultation element of the GPRA Modernization 
Act is very important and a good lesson learned, and the 
application in this area is a good example of how that could 
happen.
    Second, it focuses a lot on cross-cutting issues. The 
original Act, as you know, in 1993, focused on an agency-by-
agency strategic planning and performance measures. More and 
more issues require multiple agencies to work together to 
address those issues to achieve an overall outcome. The 
security clearance area is another example of where now 
agencies are working together and organized properly and 
setting goals that collectively need to be met on a 
governmentwide basis, and I think more of that needs to be done 
and I think the GPRA Modernization Act is a good example of 
that.
    Third, there needs to be regular reporting. The GPRA 
Modernization Act requires quarterly reporting of performance 
metrics on a public Web site, and I would hope that perhaps 
this area, the personnel security clearance process, can evolve 
to that as well, to be more transparent and to provide 
reporting requirements. One thing I am a little concerned about 
is that the timeliness reporting requirement for this area 
lapsed last year from the 2004 Act. And so I think there needs 
to be continued regular reporting in this area.
    Additionally, the GPRA Act focused really on quality 
measures and outcomes and I think that area needs a lot of 
attention. The initial focus here, properly so, was on 
timeliness. But the real bottom line is, are people getting the 
clearances who should be getting the clearances and that is a 
function of quality. And I would encourage OPM in their task 
force that they mentioned to look at the RAISE tool and expand 
it across the government, expedite their work in that area, 
because I think quality is really pivotal in this area, and to 
continually reset goals. For example, it was mentioned here 
that the timeliness goal now for reinvestments is 150 days. 
Well, that is more than double the goal for the initial 
clearances. Perhaps that goal can be driven down over time 
through proper application of GPRA Modernization practices.
    So those are a few of the ways that the GPRA Modernization 
Act could continue to improve the personnel security process, 
as well, as taking those lessons learned and implementing them 
more governmentwide in other high-risk areas.
    Finally, I would just say that we have been working with 
Mr. Werfel and Mr. Zients at OPM in the 30 areas that are 
currently on the High-Risk List to have joint meetings to talk 
about metrics and how to assess progress going forward. So we 
are trying to take the lessons learned from this particular 
example and trying to implement them in other high-risk areas. 
Ms. McGrath has been involved in the ones at DOD, as well.
    Senator Akaka. Well, thank you very much for your 
responses.
    This is my final question and it is to the entire panel. 
What oversight or legislative actions do you believe Congress 
should consider to help sustain the progress made in the 
security clearance process? I would like to ask Mr. Werfel to 
begin followed, by Ms. McGrath, Mr. Miller, Mr. Sowell, and 
then Mr. Dodaro. Mr. Werfel.
    Mr. Werfel. Thank you, Chairman. It is a very good and 
important question. One of the reflections that I have is that 
the IRTPA framework worked and worked effectively. It set out a 
hard target and it required the Executive Branch to organize 
itself to meet that target, but it did not necessarily set out 
how the Executive Branch would do so.
    What we have borne out of that framework is an integrated 
process bringing the right Federal agencies to the table. There 
are clear lines of leadership and governance. And as we 
mentioned today, there is a good, healthy mix of 
accountability, performance, transparency, and a willingness to 
reform the processes of government and the technologies of 
government to get the job done.
    All that being said, it could be very easy, as we have seen 
in other areas of government historically, for that performance 
to lapse if the type of attention does not sustain it in this 
way. My gut tells me that the right approach from Congress's 
vantage point is to make sure that the oversight is sustained, 
that the hearings continue. It does not actually even have to 
be hearings. It could be staff-level briefings. And those 
hearings and briefings need to focus and isolate, if possible, 
where any of the performance gaps are occurring because there 
may be a need for further legislation if either certain 
performance gaps that exist today sustain over time or if new 
ones emerge.
    But I think the overarching framework has worked very well, 
and so I think where we want to be is in a place where we are 
monitoring for particular systemic problems that may emerge, 
and to the extent we can, move quickly to close those gaps, 
potentially through legislative solutions. But we have to be in 
a monitoring mode and I would urge not to do anything that 
would necessarily change some of the guiding elements of the 
IRTPA framework that have worked so well, which combined the 
combination of a hard target with a certain amount of Executive 
Branch flexibility in order to achieve that target.
    Senator Akaka. Thank you very much. Ms. McGrath.
    Ms. McGrath. Yes, sir, and I would actually echo, probably 
fully, Mr. Werfel's comments with regard to IRTPA told us what 
in terms of setting the target but did not dictate how and it 
gave us the flexibility to establish the Performance 
Accountability Council and then drive performance through 
oversight of this Subcommittee, the Council, and then the 
reporting aspects.
    I do think that to ensure Congress is also informed on a 
regular basis with regard to performance, we should ensure on a 
very routine basis that you have those performance measures. We 
do collect them. But at this time, I do not see a need for 
immediate legislation, but per Mr. Werfel's point, going 
forward, and as we get further into our reform effort, there is 
always the opportunity to come back and ask. So thank you.
    Senator Akaka. Thank you. Mr. Miller.
    Mr. Miller. Mr. Chairman, I would echo Mr. Werfel's 
comments, as well. We recognize that through the Chairmanship 
of the PAC by OMB there has been great progress in security 
clearance reform. And as we recognize challenges as they come 
up, the PAC has been aggressive in standing up appropriate 
subcommittees like we did for training, as we have for 
performance, and as we are talking about doing for record 
repositories to ensure that we get a consistent flow of 
information across the Federal Government in standardizing 
those records so we can obtain them and pass them on to those 
that need them.
    So I would agree that we need to be vigilant. Persistent 
surveillance on performance is critical. And we will report our 
continued performance through the PAC.
    Senator Akaka. Thank you very much. Mr. Sowell.
    Mr. Sowell. Thank you, Mr. Chairman. I agree with my 
colleagues. I do not see the need for additional legislation at 
this point, but clearly, continued oversight and attention is 
key. I think the combination of the Performance Accountability 
Council, the Government Accountability Office, the Security and 
the Suitability Executive Agents, and this Subcommittee, 
working together to align the security and suitability 
processes in every possible way, is where we will get the most 
bang for our buck.
    Senator Akaka. Thank you very much. Mr. Dodaro.
    Mr. Dodaro. Clearly, additional oversight and monitoring is 
important. The real question is how to do that. The first area 
I would say is in regular reporting. I think in the absence of 
additional legislation, given the lapsing of the timeliness 
reporting under the 2004 legislation, there should be a 
commitment to substitute for that possibly an agreement by the 
Administration with Congress on what form that regular 
reporting will take place. It could be done through the GPRA 
Modernization Act framework support. But I do not think it 
should be left to be totally unclear or ambiguous about how 
that reporting will take place. And if there is a satisfactory 
solution without a legislative outcome then that is fine.
    If that solution falls short of what Congress needs to get 
regular information, it is important, and I do not think this 
area ought to be treated or subjected to lesser requirements 
than what the GPRA Modernization Act calls for now in terms of 
quarterly reporting, visibility, et cetera, and also to 
continue to improve the performance metrics, particularly for 
the quality area. I think the quality area is essential to 
ensuring that the objective of providing clearances which is to 
make sure that people who should not have access to National 
Security information do not have access to it.
    The other area I think is important is that the Performance 
Accountability Council has been created through Executive Order 
(EO). And while attention to this area has transcended over the 
last two Administrations, there have been slightly different 
tactics taken by the different Administrations, and I would say 
that would be an area that needs monitoring, as well. And a 
number of other areas, whether it is the Chief Financial 
Officer (CFO) Council, the Chief Information Officer (CIO) 
Council, the Chief Human Capital Officer (CHCO) Council, there 
is a legislative underpinning that provides for transition 
between administrations over time. So that is another area that 
I think there should be an eye kept towards because the current 
configuration has worked well. Hopefully, it will be continued 
in the future, but there is no guarantee absent a legislative 
mandate.
    Senator Akaka. Well, thank you very much.
    At this time, there are no further questions. I would like 
to thank all of the witnesses for being here today. Your 
responses have been great. It will certainly help the 
Subcommittee and all of us continue the progress that has been 
made at this time.
    The security clearance process is a model for cross-cutting 
systemic reform. The Performance Accountability Council, 
working together with GAO and Congress, has made great strides 
and has created a framework for continued improvement. Ongoing 
leadership commitment and oversight are still needed if our 
accomplishments are to last into the future.
    The hearing record will be open for one week for any 
additional statements or questions from other Members of the 
Subcommittee.
    And again, I want to thank all of you for all of your work. 
You have been tremendous in bringing the progress about and I 
want to wish you well in your work.
    The hearing is adjourned.
    [Whereupon, at 4:02 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
